DOE/IG-0442




INSPECTION                       INSPECTION OF SELECTED ISSUES
  REPORT                      REGARDING THE DEPARTMENT OF ENERGY
                                ACCIDENT INVESTIGATION PROGRAM




                                           APRIL 1999




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                                      April 1, 1999


FROM:          Gregory H. Friedman /s/
               Inspector General

SUBJECT:       INFORMATION: Report on “Inspection of Selected Issues Regarding the
               Department of Energy Accident Investigation Program”

BACKGROUND

One method used by the Department of Energy (DOE) to promote worker safety is through
the Department’s accident investigation program. The objectives of the program are, among
other things, to enhance safety and health of employees, to prevent the recurrence of acci-
dents, and to reduce accident fatality rates and promote a downward trend in the number and
severity of accidents. The Assistant Secretary, Office of Environment, Safety and Health
(EH), through the EH Office of the Deputy Assistant Secretary for Oversight, is responsible
for implementation of the Department’s accident investigation program.

As part of our inspection, we reviewed an April 1997 EH accident investigation report re-
garding an accident involving a Lockheed Martin Energy Systems (LMES) welder, who suf-
fered fatal burns when his clothing caught fire while he was using a cutting torch at the Oak
Ridge K-25 Site. We also reviewed reports of other accident investigations conducted by EH
and DOE field organizations. Based on our review of these reports, we identified issues con-
cerning the adequacy of the examination and reporting by accident investigation boards of
specific management systems and organizations as a possible accident root cause. Our in-
spection also identified issues concerning worker safety that we determined required immedi-
ate management attention, such as whether occurrences were being reported in the appropri-
ate management systems and whether prompt consideration was being given to implementing
revisions of national standards when the revisions increased worker safety.

RESULTS OF INSPECTION

Although considerable improvement has occurred in the Department’s accident investigation
process, we concluded that additional improvement is needed in the identification of the root
and contributing causes of accidents. More importantly, we concluded that deficiencies re-
garding root cause analysis were more the result of inadequate implementation of existing
policies, procedures, and guidelines, than the result of deficiencies in the guidance. Requiring
at least one board member or advisor to be trained and experienced in causal analysis could
alleviate many of the deficiencies we identified regarding the root cause analyses conducted
by accident investigation boards.
                                                                                             2

Also, we determined that incidents involving welders’clothing burning or catching fire and
resulting in medical treatment, which had been reported in the Department’s Computerized
Accident/Incident Reporting System, had not been reported in the Department’s Occurrence
Reporting and Processing System (ORPS). In our judgement, these incidents were “near
misses” and should have been reported in ORPS . The term “near miss” refers generally to an
incident in which only one remaining “barrier” prevented a serious accident or injury, after
other “barriers” failed. We concluded that actions are needed by management to ensure that
“near misses” are being reported in the appropriate management systems and that trends,
which may indicate a potential safety and health concern, are identified.

In addition, we found that although an earlier 1967 revision of a national standard regarding
welding and cutting operations was incorporated in the LMES contract, a 1994 revision of
the standard that contained a requirement concerning the selection of welders’protective
clothing had not been incorporated into the contract at the time of the welder fatality. We
concluded that management systems should have ensured that requirements, such as those
pertaining to welders’protective clothing contained in the 1994 revision of the national stan-
dard, had been incorporated in the LMES contract. We also concluded that action is required
to ensure that contractors immediately implement the DOE order requirements regarding
compliance with the current revision of the national standard.

Our report contains recommendations for corrective actions to ensure: (1) the proper report-
ing and trending of occurrences, including “near-misses;” (2) an annual review is conducted
of the “List B” set of requirements in contracts to ensure the requirements are current; (3)
emphasis is placed on conducting a thorough causal analysis, to include root cause analysis,
for accident investigations; and (4) determinations regarding possible conflict of interests in-
volving accident investigation board members or advisors are appropriately documented.

MANAGEMENT REACTION

Management concurred with the findings and recommendations and initiated appropriate cor-
rective actions.

Attachment

cc: Deputy Secretary
    Under Secretary
INSPECTION OF SELECTED ISSUES REGARDING THE DEPARTMENT
OF ENERGY ACCIDENT INVESTIGATION PROGRAM


TABLE OF
CONTENTS

                 Overview

                 Introduction and Objective … … … … … … … … … … …     1

                 Observations and Conclusions … … … … … … … … … ..    3

                 Reporting “Near Miss” Occurrences in
                 the Appropriate Management System

                 Details of Finding … … … … … … … … … … … … … … ..    5

                 Recommendations … … … … … … … … … … … … … … .        6

                 Implementation of Current National Standard

                 Details of Finding … … … … … … … … … … … … … … ..    8

                 Recommendations … … … … … … … … … … … … … … .        9

                 Identification of Root Cause

                 Details of Finding … … … … … … … … … … … … … … ..    10

                 Recommendations … … … … … … … … … … … … … … .        15

                 Possible Conflict of Interest

                 Details of Finding … … … … … … … … … … … … … … ..    17

                 Recommendation … … … … … … … … … … … … … … ..        17

                 Management Comments … … … … … … … … … … … .          18

                 Inspector Comments … … … … … … … … … … … … ...       20

                 Appendices

                 A. Comments by the Assistant Secretary for
                    Environment, Safety and Health … … … … … … … ..   21

                 B. Scope and Methodology … … … … … … … … … … ..      26
Overview

INTRODUCTION AND   One of the critical success factors identified in the Department of
OBJECTIVE          Energy’s (DOE) Strategic Plan for environment, safety and health
                   is “how will we ensure the safety and health of workers and the
                   public, and protect and restore the environment.” One method
                   used by the Department to promote worker safety is through the
                   Department’s accident investigation program. The objectives of
                   the program are, among other things, to enhance safety and health
                   of employees, to prevent the recurrence of accidents, and to reduce
                   accident fatality rates and promote a downward trend in the
                   number and severity of accidents. The Assistant Secretary, Office
                   of Environment, Safety and Health (EH), through the EH Office of
                   the Deputy Assistant Secretary for Oversight, is responsible for
                   implementation of the Department’s accident investigation
                   program.

                   Accidents are categorized according to severity. For example, a
                   Type A accident, which is the most severe, could involve a fatality
                   or a property loss estimated at equal to or greater than $2.5 million.
                   A Type B accident, which is less severe, could involve serious
                   injuries or a property loss estimated at less than $2.5 million, but
                   greater than $1 million. Following the categorization of an
                   accident as a Type A or Type B accident, an accident investigation
                   board is appointed to determine the facts of the accident and report
                   the investigation results without determining individual fault or
                   proposing punitive measures. One of the most important
                   responsibilities of the appointing official is to ensure that the
                   board’s authority is clear in investigating potential causes, including
                   the root cause(s), of a given accident. This authority includes
                   reviewing, as possible root causes, management systems, policy,
                   and line management oversight processes up to and beyond the
                   level of the appointing official. Root cause analysis is used to
                   identify those deficiencies, including management systems factors
                   that, if corrected, would prevent recurrence of the accident.

                   In March 1996, we issued an inspection report titled “Summary
                   Results of the Inspection of Issues Regarding the Scope of the
                   Accident Investigation of the TRISTAN Fire at the Brookhaven
                   National Laboratory,” DOE/IG-0386, which concerned issues
                   regarding the scope of the Department’s accident investigation of a
                   March 31, 1994, fire at the Terrific Reactor Separator To Analyze
                   Nuclides (TRISTAN) experiment at the Department’s Brookhaven
                   National Laboratory). We were concerned that the accident


Page 1                               Inspection of Selected Issues Regarding the
                                     Department of Energy Accident Investigation
                                     Program
         investigation board did not adequately examine and report on
         specific management systems and organizations as a possible root
         cause.

         In April 1997, EH issued an accident investigation report, titled
         “Type A Accident Investigation Board Report on the
         February 13, 1997, Welding/Cutting Fatality at the K-33 Building,
         K-25 Site Oak Ridge, Tennessee.” The report concerned the
         investigation of an accident involving a Lockheed Martin Energy
         Systems, Inc. (LMES) welder, who suffered fatal burns when his
         clothing caught fire while he was using a cutting torch at the K-33
         Building, Oak Ridge K-25 Site, now the Oak Ridge East Tennessee
         Technology Park. After reviewing the root causes identified by the
         EH Accident Investigation Board (Board), we determined that the
         Board did not adequately examine and report on specific
         management systems and organizations as a possible accident root
         cause. Instead, the Board chose to report what it believed were
         urgent policy issues concerning the welder’s clothing and fire watch
         responsibilities as the accident root causes, even though the Board
         identified as the overwhelming concern the failure to conduct
         adequate work planning and hazards analyses, which are specific
         management systems.

         The objective of our inspection was to review the Board’s root
         cause analysis and the resolution of an alleged conflict of interest by
         a technical advisor to the Board. However, during our preliminary
         fieldwork, we identified additional issues concerning worker safety
         that we determined required immediate management attention.
         These issues concerned whether occurrences were being reported
         in the appropriate management systems, and whether prompt
         consideration was being given to implement revisions of national
         standards, when the revisions increased worker safety. These
         issues were discussed in an Office of Inspector General
         Management Alert, titled “Inspection of K-25 Type A Accident
         Investigation,” S98IS004, issued on November 7, 1997.

         Since February 1997, when the welder fatality occurred, reports
         regarding the reporting of contractor injuries have been issued and
         a significant safety initiative was announced by the Department.
         For example, in May 1997, the Office of Inspector General issued
         an audit report titled: “Audit of Department of Energy Contractor
         Occupational Injury and Illness Reporting Practices,” DOE/IG-
         0404, which found that management and operating contractors

Page 2                     Inspection of Selected Issues Regarding the
                           Department of Energy Accident Investigation
                           Program
                   were not reporting all significant work-related injuries/illnesses as
                   required by Departmental and Occupational Safety and Health
                   Administration (OSHA) guidelines. Also, in September 1997, the
                   Department’s Oak Ridge Operations Office (OR) issued a report
                   titled: “Report on the For Cause Review of the Lockheed Martin
                   Energy Systems (LMES) Occurrence Reporting Program,” which
                   determined that “near misses” are not adequately defined by the
                   Department, so there is no clear expectation for what types of
                   events would be reportable. In addition, on April 14, 1998, the then
                   Secretary of Energy announced a new safety initiative under which
                   the Department will adopt a “zero tolerance” policy for serious
                   accidents that result in life-threatening injuries or major
                   environmental contamination. This safety initiative is a Department-
                   wide effort intended to make a dramatic improvement in
                   environment, safety and health.

OBSERVATIONS AND   Incidents involving welders’clothing burning or catching fire and
CONCLUSIONS        resulting in medical treatment had been reported in the
                   Department’s Computerized Accident/Incident Reporting System
                   (CAIRS), but not in the Department’s Occurrence Reporting and
                   Processing System (ORPS). In our view, these incidents were
                   “near misses” that also should have been reported in ORPS. We
                   concluded that actions are needed by management to ensure that
                   “near misses” are being reported in the appropriate management
                   systems and that trends, which may indicate a potential safety and
                   health concern, are identified. [Note: As part of its
                   implementation of the Government Performance and Results Act of
                   1993 (GPRA), the Department must, among other things, establish
                   program goals and measure performance against these goals. The
                   ORPS database is a performance-based management system that
                   can be used to evaluate the Department’s performance under
                   GPRA.]

                   Also, an earlier 1967 revision of a national standard, American
                   National Standards Institute (ANSI) Z49.1, “Safety in Welding,
                   Cutting and Allied Processes,” was incorporated in the LMES
                   contract through the Standards/Requirements Document (S/RID).
                   However, at the time of the welder fatality, a 1994 revision of the
                   standard that contained a requirement concerning the selection of
                   welders’protective clothing had not been incorporated into the
                   Department’s contract with LMES. We concluded that
                   management systems should have ensured that requirements, such


Page 3                               Inspection of Selected Issues Regarding the
                                     Department of Energy Accident Investigation
                                     Program
         as those pertaining to welders’protective clothing contained in the
         1994 revision of the ANSI standard, had been incorporated in the
         LMES contract through the S/RID.

         In addition, EH’s implementation of the EH Accident Investigation
         Board’s “Proposed Judgements of Need” may not fully address the
         Board’s purported desire to require the use of flame-retardant, anti-
         contamination clothing in cutting, welding, and hotwork
         operations. We concluded that action is required to ensure that
         contractors immediately implement the DOE order requirements
         regarding compliance with the current revision of ANSI Z49.1 for
         cutting, welding, and hotwork activities. The DOE order does not
         require immediate modification of existing contracts to ensure
         compliance with the current ANSI Z49.1 standard.

         Considerable improvement has occurred in the Department’s
         accident investigation process since the release of our report on the
         investigation of the TRISTAN fire. However, we concluded that
         additional improvement is needed in the identification of the root
         and contributing causes of accidents. More importantly, we
         concluded that deficiencies regarding root cause analysis were
         more the result of inadequate implementation of existing policies,
         procedures, and guidelines, than the result of deficiencies in the
         guidance. Requiring at least one board member or advisor to be
         trained and experienced in causal analysis could alleviate many of
         the deficiencies we identified regarding the root cause analyses
         conducted by accident investigation boards.

         Finally, there was a difference of opinion whether a possible
         conflict of interest was resolved regarding the assignment of a
         former LMES safety manager as a technical advisor to the EH
         Accident Investigation Board investigating the welder fatality. We
         concluded that when legal advice is obtained by the board
         chairperson regarding a possible conflict of interest determination,
         the legal advice should be appropriately documented.




Page 4                    Inspection of Selected Issues Regarding the
                          Department of Energy Accident Investigation
                          Program
Reporting “Near Miss”Occurrences In The Appropriate Management System


                       We found that incidents of welders’clothing burning or catching
                       fire and resulting in medical treatment had been reported in one
                       management system, CAIRS, but had not been reported in ORPS.
                       The purpose of ORPS is to ensure appropriate and timely
                       identification, categorization, response, notification, investigation,
                       and reporting of abnormal conditions and events.

“Near Misses”Not       Between January 1990 and February 13, 1997, the date of the
Reported In ORPS       welder fatality, five incidents had occurred at the Oak Ridge Site
                       involving welders’clothing burning or catching fire and resulting in
                       medical treatment. However, key fire protection personnel at the
                       Oak Ridge site said that they had not been aware of the reported
                       incidents prior to the welder fatality. These incidents had been
                       reported in CAIRS, but not in ORPS. According to the
                       Headquarters ORPS Manager, incidents of welders’clothing
                       burning or catching fire, including the five incidents at the Oak
                       Ridge Site, should have been reported in ORPS.

                       Subsequent to the release of our Management Alert, we also
                       identified four incidents involving welders’clothing burning or
                       catching fire and resulting in medical treatment at another DOE
                       site, the Savannah River Site. Although these incidents had also
                       been reported in CAIRS, the incidents had not been reported in
                       ORPS.

Definition of          Requirements for reporting “near misses” in ORPS are contained in
“Near Miss” Was a      DOE orders and implementing manuals concerning occurrence
Concern                reporting. DOE Order 5000.3A, “Occurrence Reporting and
                       Processing of Operations Information,” dated May 5, 1990, and
                       subsequent DOE orders and implementing manuals concerning
                       occurrence reporting, established groups of categorized
                       occurrences. Under Group 10, “Cross-Category Items,” a near
                       miss occurrence that should be reported as an “Off-Normal”
                       occurrence is “a near miss to one of the reporting classifications
                       under preceding categories [e.g., “Group 3-Personnel Safety”]
                       where the conditions necessary to cause a reportable occurrence
                       were prevented from existing by one remaining barrier after other
                       barriers had been compromised (i.e., one additional independent
                       failure/degradation was necessary for event initiation to be
                       possible).”




Page 5                                                                  Details of Finding
                  Comments that we received on a draft of our report, however,
                  expressed concern with the adequacy of the current definition of
                  “near miss” in DOE orders. We understand that the Department’s
                  Occurrence Reporting Special Interest Group is addressing this
                  matter.

                  Based on our review of the data in the CAIRS and ORPS databases
                  for the Oak Ridge and Savannah River Sites, we concluded that
                  actions are needed by management to ensure that “near misses” are
                  being reported in the appropriate management systems and that
                  trends, which may indicate a potential safety and health concern,
                  are identified.

Recommendations   We recommend that:

                  The Director, Office of Procurement and Assistance Management:

                  1.   In coordination with the Office of Environment, Safety and
                       Health, develop and issue guidance for field office managers
                       and field contracting officers regarding the use of incentives
                       and disincentives for contractors to properly report
                       occurrences, including near misses.

                  The Assistant Secretary for Environment, Safety and Health:

                  2.   Emphasize to field office reporting coordinators and
                       contractor management the need to ensure adherence to
                       current policy and guidance for reporting of occurrences,
                       including near misses.

                  3.   Increase dissemination and awareness of reported accident
                       information at the Oak Ridge site and other Department
                       sites.

                  4.   Ensure wide dissemination of analytical tools that assist in the
                       identification of trends involving safety and health concerns.

                  The Director, Office of Field Management:

                  5.   Using the guidance developed by the Office of Procurement
                       and Assistance Management and the Office of Environment,
                       Safety and Health, emphasize to field office managers and



Page 6                                                           Recommendations
              facility representatives the need for proper reporting of
              occurrences, including near misses.

         6.   Emphasize to field office managers and facility
              representatives the need for contractor management to
              utilize the analytical tools disseminated by the Office of
              Environment, Safety and Health to identify trends
              involving safety and health concerns.




Page 7                                                  Recommendations
Implementation of Current National Standard

Current National         The 1967 revision of ANSI Z49.1, which contained
Standard Contains A      recommendations but no requirements concerning protective
Requirement              clothing, was incorporated into the Department’s contract with
                         LMES at the time of the K-25 Site welder accident, rather than the
                         current 1994 revision of ANSI Z49.1, which contains a specific
                         requirement regarding management’s role in the selection of
                         welders’protective clothing. The specific requirement in the 1994
                         revision of ANSI Z49.1 was that “clothing shall be selected to
                         minimize the potential for ignition, burning . . . .” [Emphasis
                         added.] Also, at the time of the accident, the cotton anti-
                         contamination clothing worn by the welder was not heavy cotton or
                         fire-retardant, as recommended by the 1994 revision of ANSI
                         Z49.1. We concluded that management systems should have
                         ensured that requirements, such as the requirement in the current
                         1994 revision of the national standard concerning welders’
                         protective clothing, were incorporated in the LMES contract
                         through the S/RID.

                         Also, EH’s implementation of the EH Accident Investigation
                         Board’s “Proposed Judgements of Need” concerning the use of
                         flame-retardant, anti-contamination clothing and personal
                         protection equipment may not fully address the Board’s purported
                         desire to require the use of flame-retardant, anti-contamination
                         clothing in cutting, welding, and hotwork operations. According to
                         the EH Accident Investigation report, one of the root causes of the
                         welder fatality, which by definition, if eliminated would have
                         prevented the accident, was the failure to use flame-retardant, anti-
                         contamination clothing. The Board Chairman said that it was the
                         Board’s desire to require, through EH policy changes, welders at
                         all DOE sites to wear flame-resistant, anti-contamination clothing.
                         However, a proposed change to DOE Order 440.1, “Worker
                         Protection Management for DOE Federal and Contractor
                         Employees,” which was to mandate compliance with the 1994
                         revision of ANSI Z49.1, did not identify the revision of ANSI
                         Z49.1 that should be followed or require that contracts be
                         immediately modified to meet this requirement.

                         We concluded, therefore, that action is required to ensure that
                         contractors immediately implement the requirements in the current
                         order, DOE 440.1A, regarding compliance with the current
                         revision of ANSI Z49.1 for cutting, welding, and hotwork
                         activities. We also concluded that the “List B” set of requirements



Page 8                                                                  Details of Finding
                  that was in existing contracts should be reviewed for new standards
                  and revisions and updated as appropriate.

Recommendations   We recommend that:

                  The Director, Office of Procurement and Assistance Management:

                  7.   In coordination with the Office of Environment, Safety and
                       Health, develop and issue guidance regarding the need for
                       field contracting officers to ensure, on an annual basis, that
                       the “List B” set of requirements in contracts is reviewed
                       and updated as appropriate.

                  The Director, Office of Field Management:

                  8.   Emphasize to field office managers the need for field
                       contracting officers, on an annual basis, to ensure that the
                       “List B” set of requirements in contracts is reviewed and
                       updated as appropriate.




Page 9                                                           Recommendations
Identification of Root Cause

                           We found that, as in the earlier investigation of the TRISTAN
                           Type B accident, the accident investigation of the K-25 Site welder
                           fatality did not adequately examine and report on specific
                           management systems and organizations as a possible accident root
                           cause. In addition, after reviewing several recent accident
                           investigation reports, we found that most of these investigations
                           also did not adequately examine and report on specific management
                           systems and organizations as a possible accident root cause.

Management Systems         One of the more difficult challenges facing an accident investigation
As A Root Cause            board is identifying the root cause(s) to prevent a recurrence of the
                           accident. According to the DOE Workbook on conducting
                           accident investigations, the main focus of the accident investigation
                           board should be finding concise and valid root causes that address
                           the fundamental system deficiencies that led to the accident. Root
                           cause analysis is used to identify the most basic deficiencies,
                           including those management systems that, if corrected, would
                           prevent recurrence of the accident. Simply stated, the root cause is
                           the underlying reason that answers the investigator’s question,
                           “Why?” Root cause analysis does not only apply to a specific
                           accident, but is intended to have generic implications for lessons
                           learned applicable to a broad group of DOE sites and facilities. In
                           accident investigations, finding root causes is prerequisite to the
                           development and implementation of corrective and preventive
                           measures.

                           We discussed the issue of root cause analysis with an expert who
                           assisted EH in developing its accident investigation guidelines.
                           He informed us that management failure was frequently the root
                           cause of industrial-type accidents. In addition, much of the
                           literature on root cause analysis identified the breakdown of
                           specific management systems as the main reason for accidents.

Root Causes of K-25        The EH Accident Investigation Board reported two root causes for
Site Welder Fatality Not   the welder fatality: (1) personal protective equipment worn by the
Identified                 welder was not identified as a hazard (i.e., the personal protective
                           equipment was not flame-retardant), and (2) personnel safety
                           responsibilities for the fire watch were not appropriately
                           emphasized. Given the definition that a root cause is a fundamental
                           cause, that, if eliminated or modified, would prevent recurrence of
                           this and similar accidents, we determined that there is sufficient
                           evidence to show that neither of the causes reported by the Board


Page 10                                                                   Details of Finding
                        as the “root causes” of the welder accident could be an actual root
                        cause. For example, an investigation into specific management
                        systems and organizations to determine why the current standards
                        for protective clothing (1994 revision of ANSI Z49.1) had not
                        been implemented, may have led the Board to identification of the
                        actual root cause regarding the clothing hazard to the welder.
                        Also, an investigation into specific management systems and
                        organizations to determine why a fire watch had not been
                        designated and why a fire watch was not present during the
                        welder’s activities, may have led the Board to identification of the
                        actual root cause regarding the fire watch.

Root cause was likely   We found evidence that the root cause of the K-25 Site welder
a management system     fatality was most likely the failure of a management system or
failure                 organization. However, we were told that Board members made a
                        conscious decision not to “push” the root cause analysis to a higher
                        level (i.e., conduct an analysis of specific management systems and
                        organizations as a possible root cause), because of the desire to
                        immediately correct the situation regarding the lack of flame-
                        retardant clothing and the lack of personnel safety responsibility by
                        the fire watches.

                        For example, we found evidence that management should have
                        known of prior incidents involving welders’clothing catching fire.
                        Through interviews, the EH Accident Investigation Board had
                        identified several occurrences involving welders’clothing burning
                        or catching fire that had occurred prior to the welder fatality, but
                        which allegedly had not been reported to management. According
                        to the Board, since workers had not reported earlier clothing fires,
                        supervisors had not recognized the rather frequent occurrence of
                        such fires. We determined, however, that previous incidents
                        involving welders’clothing catching fire were reported in CAIRS
                        and were known to the welders’supervisors, which provided
                        management the opportunity to recognize the potential for such
                        fires.

                        We also determined that the Board had developed sufficient
                        evidence to warrant an investigation into specific management
                        systems and organizations associated with the welder’s activities,
                        which may have led the Board to identify the actual root cause.
                        According to the EH Accident Investigation Report, the
                        “overarching” concern stemming from the investigation was the
                        failure to conduct adequate work planning and hazard analysis.

Page 11                                                                Details of Finding
                             Also, according to the EH Accident Investigation Report, the facts
                             surrounding the welder fatality included a variety of management
                             system breakdowns, e.g., management follow-up on their written
                             commitment to safety for the work being conducted was not
                             effective.

                             The existence of a national standard (ANSI Z49.1-1994) that
                             contained requirements regarding welders’protective clothing and
                             the absence of a fire watch provide a compelling basis for taking the
                             causal analysis to a higher level by asking the root cause question,
                             “Why?”, e.g., why wasn’t the current revision of the national
                             standard incorporated in the LMES contract, and why wasn’t a fire
                             watch designated and present at the time of the accident? We
                             concluded that, by possibly identifying the actual root cause(s) of
                             the accident, the Board could have come closer to fulfilling the
                             scope of the accident investigation established by the EH Assistant
                             Secretary.

Selected Accident            We reviewed several recent Type B accident investigation reports to
Investigation Reports        determine whether the accident investigation boards adequately
Reviewed For Root Cause      examined and reported on specific management systems and
                             organizations as a possible root cause. We also reviewed two
                             Type A accident investigation reports that were provided by EH
                             management as examples of accident investigations that adequately
                             identified and investigated specific management systems and
                             organizations as a possible cause of the accident.

Type B accident              After reviewing four Type B accident investigation reports issued
investigation reports        between February and April 1998 that we had received through the
did not adequately examine   Department’s report distribution system, we determined that the
management systems           accident investigation boards that conducted the investigations did
                             not adequately examine and report on specific management systems
                             and organizations as possible root causes of the accidents. We also
                             determined that where the reported root cause involved
                             management, the root cause was reported in general terms and a
                             specific management system or organization was not identified.

                             One accident investigation report, which concerned an apprentice
                             lineman who received an electric shock from an electrical “transfer
                             bus,” reported the root cause as the individual leaving the safe work
                             area. However, prior to initiating the work, the workers had been



Page 12                                                                     Details of Finding
                        told by the work supervisor that the “transfer bus” had been
                        “deenergized.” Another report, which concerned a drum explosion
                        that resulted in the spill of hazardous/radioactive waste (mixed
                        waste), reported the root cause as “failure of management control
                        systems.” However, the report did not identify the specific
                        management control system(s) that failed and that, if corrected,
                        would prevent the accident from recurring. A third report, which
                        concerned the collapse of a building service employee working
                        under a permanent medical restriction, reported the root cause as
                        “management did not recognize the extent of the employee’s
                        concerns.” However, the report did not identify the level of
                        management that could have prevented the occurrence. A fourth
                        report, which concerned a shipment of radioactive samples that did
                        not comply with Federal and State requirements, reported the root
                        causes as failure to comply with regulations and procedures, and
                        lack of trained, competent personnel commensurate with
                        responsibilities for packaging and transportation. However, an
                        indicator that the actual root cause of the occurrence may involve a
                        management system or organization was the statement in the
                        accident investigation report that similar problems concerning
                        sample shipments had occurred in the past.

                        We concluded that by not adequately examining and reporting on
                        specific management systems and organizations as a possible root
                        cause, the Type B accident investigation boards might not have
                        identified the actual root causes of the accidents.

Type A accident         EH management provided us two Type A accident investigation
investigation reports   reports as examples of accident investigations that adequately
adequately examined     examined and reported on specific management systems and
management systems      organizations as a possible cause of the accident. One report
                        concerned the deaths of contractor employees from the crash of a
                        DOE-owned, contractor-operated helicopter at the Nevada Test
                        Site. We determined, based on the information in the
                        “ANALYSIS” section of the accident investigation report, that the
                        accident investigation board adequately examined specific
                        management systems and organizations as a possible cause of the
                        accident. For example, the report discussed responsibilities of the
                        Headquarters Office of Safeguards and Security and the Nevada
                        Operations Office Safeguards and Security Division that played a
                        role in the accident. However, the board did not report on specific
                        management organizations relative to the causes of the accident.
                        The “CONCLUSIONS” and “PROBABLE CAUSES” sections of

Page 13                                                               Details of Finding
                          the report, for example, only discussed management problems
                          relative to higher-tier organizations, e.g., Headquarters and the
                          Nevada Operations Office, but did not identify the specific lower-
                          tier organizations that were involved.

                          The other report, which concerned the death of a laborer who was
                          hit by a heavy construction wheel loader, reported the root cause of
                          the accident as “a lapse of judgment.” We determined that the
                          accident investigation board adequately examined specific
                          management systems and organizations as a possible root cause of
                          the accident. However, the root cause analysis could have been
                          taken further. For example, in its root cause discussion, the board
                          cited both the equipment operator and the laborer for a lapse of
                          judgment. However, there is evidence that the operator should
                          bear a greater share of the responsibility for the accident.

                          We determined that the two Type A accident investigation boards
                          adequately examined specific management systems and
                          organizations as a possible cause of the accident. However, we
                          concluded that accident investigation boards should ensure that a
                          thorough analysis is conducted to identify the actual accident root
                          cause, to include, if appropriate, reporting on specific organizations
                          that may be the root cause.

Existing Guidelines Not   Considerable improvement has occurred in the Department’s
Adequately Implemented    accident investigation process since the release of our report on the
                          investigation of the TRISTAN fire. Also, the Department is in the
                          process of implementing the Integrated Safety Management
                          program, which should aid the accident investigation process.
                          However, additional improvement is needed in the causal analyses
                          being conducted to identify the root and contributing causes of
                          accidents. More importantly, we concluded that the deficiencies
                          regarding root cause analysis are more the result of inadequate
                          implementation of existing policies, procedures, and guidelines,
                          than the result of deficiencies in the guidance.

                          DOE guidance regarding accident investigations contain detailed
                          discussions of root cause analysis. For example, DOE
                          Implementation Guide, DOE G 225.1A-1, “Implementation Guide
                          for Use with DOE O 225.1A, Accident Investigations,” states that
                          accident investigations must thoroughly examine organizational
                          concerns, management systems, and line management oversight
                          processes to determine whether deficiencies in these areas were

Page 14                                                                   Details of Finding
                      root causes of the accident. According to the Guide, to find out
                      why management systems were not effective in preventing
                      conditions leading to the accident, investigators should examine the
                      components of the Department’s integrated safety management
                      system. The Guide states that the investigator must identify system
                      deficiencies at the work and management levels to determine the
                      underlying oversights, omissions, performance errors, and accepted
                      risks, which are the root causes. These causes may lie in the
                      organizational structure, safety management systems, or line
                      management oversight processes related to the accident.
                      Contributing and root causes should always be identified in order to
                      complete the causal factors analysis.

Trained Analyst Not   Causal analysis is a significant aspect of accident investigations.
Required              However, there is no requirement for an analyst specifically trained
                      and experienced in causal analysis to be a board member or advisor.
                      The DOE Implementation Guide discusses the use by accident
                      investigation boards of analytical techniques to identify the causes
                      of the accident, but to ensure the proper conduct of investigations,
                      only recommends that DOE accident investigators be appointed to
                      the board. These investigators have some training in causal
                      analysis. We concluded, however, that requiring at least one board
                      member or advisor to be trained and experienced in causal analysis
                      could alleviate many of the deficiencies we identified regarding the
                      root causes analyses conducted by accident investigation boards.
                      We also concluded that the Board Chairperson, who is responsible
                      for managing the Board’s activities, should have an understanding
                      of the identification and determination of root causes. This would
                      aid in ensuring that an adequate root cause analysis is conducted by
                      the board.

Recommendations       We recommend that the Assistant Secretary for Environment,
                      Safety and Health:

                      9. Ensure that specific management systems and organizations
                         are adequately investigated as a possible accident root cause
                         for Type A and Type B accident investigations.

                      10. Ensure that the Chairperson of an accident investigation board
                          is adequately trained in the identification and determination of
                          root causes.




Page 15                                                             Recommendations
          11. Ensure that, as part of the accident investigation oversight
              process, reviews of accident investigation reports are
              conducted to assure that, among other things,
              accident root causes identify the specific management
              systems, policies, organizations, line management
              oversight processes, etc., that, if changed, would have
              prevented the accident. For example, a “failure of
              management control systems” should not be accepted as an
              accident root cause.

          12.   Ensure that accident investigation boards include, either as
                a board member or advisor, individuals trained and
                experienced in causal analysis.




Page 16                                                 Recommendations
Possible Conflict of Interest

Difference of Opinion       There was a difference of opinion whether a possible conflict of
Regarding Resolution of     interest was resolved regarding the assignment of a former LMES
Possible Conflict of        safety manager as a technical advisor to the EH Accident
Interest                    Investigation Board investigating the welder fatality. A concern
                            had been raised regarding a possible conflict of interest after an
                            individual who had worked for LMES as the Health and Safety
                            Director for K-25 was hired as an advisor to the Board.

                            According to the Board Chairman, LMES and OR attorneys had
                            advised that there was no conflict of interest for the individual to
                            serve as an advisor to the Board. However, the LMES attorney
                            told us that it was up to the OR attorney to determine if there was
                            a problem concerning the individual’s involvement with the
                            Board. We were told by the OR attorney that no one had asked
                            him to make a decision regarding a possible conflict of interest,
                            and he did not. We concluded that when legal advice is obtained
                            by the board chairperson regarding a possible conflict of interest
                            determination, the legal advice should be appropriately
                            documented.

Recommendation              We recommend that the Assistant Secretary for Environment,
                            Safety and Health:

                            13. Ensure that, when concerns are raised regarding a possible
                                conflict of interest concerning a board member or advisor
                                participating in an accident investigation, the board
                                chairperson either excludes the individual, or documents in
                                writing, that there is no conflict, and identifies limitations, if
                                any, on participation. If the board chairperson relies on the
                                advice of legal counsel, legal counsel should document the
                                advice in writing.




Page 17                                                Details of Finding/Recommendation
Management   Management concurred with all our recommendations.
Comments
             The following are excerpts from comments dated
             January 25, 1999, to our draft report, from the Assistant Secretary
             for Environment, Safety and Health. [See Appendix A for the
             Assistant Secretary’s complete comments.]

             Regarding Recommendation 1, he said that EH will work with the
             Director, Office of Procurement and Assistance Management, to
             develop guidance for field office managers and contracting officers
             to use the “Conditional Payment of Fee” contract clause to
             incentivize contractors to properly report occurrences, including
             near misses.

             Regarding Recommendation 2, he said that, by March 1, 1999, he
             will develop and issue a memorandum for field office and
             contractor occurrence reporting contractors and management that
             emphasizes the importance of adhering to current policy and
             guidance for occurrence reporting, including near miss reporting.

             Regarding Recommendation 3, he said that EH will continue to
             disseminate accident information at Oak Ridge and other DOE sites
             and he identified six mechanisms used to disseminate the
             information.

             Regarding Recommendation 4, he said that under Integrated Safety
             Management (ISM), DOE and contractor line management are
             responsible to use available analytical tools and data to perform
             analysis to identify trends on a local level for individual sites and
             facilities. He identified three mechanisms through which EH will
             continue to make analytical tools available.

             Regarding Recommendations 5 and 6, he said that he will assist the
             Director, Office of Field Management, as appropriate, to emphasize
             the proper reporting of occurrences, including near misses, and the
             need for contractor management to utilize analytical tools to
             identify safety trends.

             Regarding Recommendation 7, he said that he will work with the
             Director, Office of Procurement and Assistance Management, to
             develop guidance for field contracting officers for updating and
             maintaining the contract “List B” set of requirements.


Page 18                                          Management Comments
          Regarding Recommendation 8, he said that EH will assist the
          Director, Office of Field Management, as appropriate, in
          emphasizing the importance of updating and maintaining the
          contract “List B” set of requirements.

          Regarding Recommendation 9, he said that EH will continue to
          strengthen the analysis and prioritization of management systems as
          a contribution to accidents. He identified four ways that EH will
          assure a consistent approach by investigation boards.

          Regarding Recommendation 10, he identified four ways that EH
          will continue to strengthen board chairperson’s capabilities and
          expertise.

          Regarding Recommendation 11, he identified four ways that EH
          will continue to strengthen the identification of specific and
          correctable management factors.

          Regarding Recommendation 12, he identified three ways that EH
          will assure a continuing and adequate cadre of analytical expertise.

          Regarding Recommendation 13, he said that EH will have
          procedures in place by January 30, 1999, to address the
          recommendation.

          In comments dated January 29, 1999, to our draft report, the
          Director of Management and Administration said that efforts have
          already begun with regard to the two recommendations
          [Recommendations 1 and 7] directed to the Director, Office of
          Procurement and Assistance Management. Guidance addressing
          the specific matters in the recommendations has been prepared and
          is undergoing coordination with the appropriate EH staff offices.
          This guidance will be distributed to the Heads of the Contracting
          Activities within the Department. It is anticipated that the action
          will be completed by the end of March 1999.

          In comments dated February 23, 1999, to our draft report, the
          Director, Office of Field Management, said that his office concurs
          with the specific recommendations for which his office will be
          responsible.




Page 19                                          Management Comments
Inspector Comments   We believe the proposed actions by management are responsive
                     to our recommendations.




Page 20                                                      Inspector Comments
                                                                               Appendix A

       COMMENTS BY THE ASSISTANT SECRETARY FOR ENVIRONMENT,
                        SAFETY AND HEALTH


                                                                               January 25, 1999

 MEMORANDUM FOR ALFRED K. WALTER

 FROM:                     David Michaels, PhD, MPH
                           Assistant Secretary
                           Environment, Safety and Health

 SUBJECT:                  Draft Report “Inspection of Selected Issues Regarding the
                           Department of Energy Accident Investigation Program”

 The Office of Environment, Safety and Health (EH) concurs with the subject report, and
 provides the following response to the recommendations:

 Recommendation 1. EH agrees that occurrences, including near misses, need to be properly
 reported, and has developed policy requiring contractors to do so. Under Integrated Safety
 Management (ISM), line management has fundamental responsibility to ensure proper
 reporting by contractors. EH will work with the Director, Office of Procurement and
 Assistance Management to develop guidance for field office managers and contracting officers
 to use the “Conditional Payment of Fee” contract clause to incentivize contractors to properly
 report occurrences, including near misses.

 Recommendation 2. By March 1, 1999, the Assistant Secretary for Environment, Safety and
 Health will develop and issue a memorandum for field office and contractor occurrence
 reporting coordinators and management that emphasizes the importance of adhering to current
 policy and guidance for occurrence reporting, including near miss reporting.

 Recommendation 3. EH will continue to disseminate accident information at Oak Ridge and
 other DOE sites through the following mechanisms:

 ·   EH will continue to produce and distribute the Operating Experience Weekly Summary – a
     summary of safety lessons learned from operating experience within and external to DOE,
     which is available at www.tis.eh.doe.gov/web/oeaf/oe_weekly/oe_weekly.html.

 ·   EH will continue to produce and distribute Safety Alerts – one page documents concerning
     the most serious, safety-significant events with applicability to other sites. The alerts are
     signed by the Assistant Secretary for Environment, Safety and Health, and get immediate
     attention across all sites. Hard copies distributed to all DOE line programs, operating


Page 21
    contractors, and the DOE safety and health community, posted on the Internet at www.tis.
    eh.doe.gov/docs/safe_alert, and e-mailed to lessons learned coordinators at all sites.

·   EH will continue to produce and distribute Safety Notices and Safety and Health Bulletins
    that provide information from technical studies based on trend analyses or generic safety
    issues that promote “pursuit of excellence” in worker safety and health. They are distributed
    to all line programs, operating contractors, and the safety community, and are posted on the
    Internet (notices at www.tis.eh.doe.gov/web/oeaf/lessons_learned/ons/ons.html and bulletins
    at www.tis.eh.doe.gov/docs/bull/links.html).

·   EH will continue to maintain the Lessons Learned Home Page, that provides Internet access
    to DOE lessons learned information at www.tis-hq.eh.doe.gov/others/ll/ll.html.

·   EH will continue to support the Lessons Learned List Server – an automatic E-mail system
    that receives and redistributes lessons to over 300 subscribers across the complex. Site
    lessons learned coordinators e-mail Red Alerts (actual event/urgent), Yellow Alerts
    (potential event/caution), Blue Alerts (fact or discovery of benefit to others/information), and
    Green Alerts (good work practice), generally within a day of a major event. The alerts are
    automatically re-transmitted to lessons learned coordinators at each site for further
    distribution and review for applicability. The server is maintained by the DOE Society for
    Effective Lessons Learned Sharing at www.tis.eh.doe.gov/others/ll/listserv.html.

·   EH will continue to distribute accident investigation reports and lessons learned through a
    variety of networks. For example, the Idaho carbon dioxide accident report is posted on the
    Internet, and an article was published in the Operating Experience Weekly Summary. A
    video tape of lessons learned from the accident was produced and distributed to 400 key
    DOE management personnel, with instructions to duplicate and further distribute the tape as
    appropriate. EH staff personally briefed key DOE senior management, including the
    Secretary and the Principal Secretarial Officers, on the details of the accident. A lessons
    learned report will be distributed in January 1999 to approximately 4000 key DOE complex
    personnel.

Recommendation 4. Under ISM, DOE and contractor line management are responsible to use
available analytical tools and data to perform analyses to identify safety trends on a local level for
individual sites and facilities. EH agrees that analytical tools should be widely available, and will
continue to make these tools available through mechanisms such as:

·   Information sources listed in Recommendation 3 above, and databases such as the
    Occurrence Reporting and Processing System (ORPS) and Computerized Accident and
    Injury Reporting System (CAIRS).

·   Activities such as the DOE Operating Experience Forum, scheduled for January 26 - 28,


Page 22
    1999, in Las Vegas, Nevada. The forum will focus on sharing analytical tools to collect,
    validate, and analyze operational data to permit line managers to make decisions regarding
    safety trends.

·   Analytical tools and techniques available on the EH operating experience analysis web page
    at www.tis.eh.doe.gov/web/oeaf.

Recommendations 5 and 6. EH will assist the Director, Office of Field Management, as
appropriate, to emphasize the proper reporting of occurrences, including near misses, and the
need for contractor management to utilize analytical tools to identify safety trends.

Recommendation 7. EH agrees that requirements in contracts need to be updated annually, as
appropriate, and will work with the Director, Office of Procurement and Assistance
Management develop guidance for field contracting officers for updating and maintaining the
“List B” set of requirements in the contract.

Recommendation 8. EH will assist the Director, Office of Field Management, as appropriate,
in emphasizing the importance of updating and maintaining the “List B” set of requirements in
the contract.

Recommendation 9. EH has direct control of Type A accident investigations, and influences
Type B accident investigations through review and comment on reports, and oversight of the
investigation process. The K-25 Type A accident investigation identified management issues,
but, as noted in the subject report, did not elevate these management issues to the level of root
causes. DOE O 225.1A and the implementation guide require that management systems be
analyzed as potential causes of accidents, and EH agrees that the identification and resolution of
overlying management weaknesses is essential to present recurrence of accidents. A number of
Type A investigations have been very successful in this area including a 1994 investigation, in
which all four root causes were management systems weaknesses, and the recent Idaho carbon
dioxide accident investigation.

EH will continue to strengthen the analysis and prioritization of management systems as a
contribution to accidents and to assure a consistent approach by investigation boards through:

·   Overlaying the investigation causal analysis on the Department’s ISM policy, including the
    seven principles and five core functions.

·   Including personnel with management experience and expertise on Type A investigation
    boards.

·   Utilizing the Quality Review Board (QRB) to independently review the results of Type A
    investigations, including root cause identification, and consideration of the contribution of
    management systems.

Page 23
·   Continuing to review and comment on Type B investigation reports, and to oversee the
    investigation process, including assuring that the scope includes management systems.

Recommendation 10. EH appoints chairpersons for Type A boards only, but provides training
for Type B board chairpersons. EH has provided comprehensive training for both Type A and
Type B investigation chairpersons since 1996, and further upgraded this training twice – in 1997
and 1998. EH provided this training to over 100 prospective Type A and Type B chairpersons in
1998. EH will continue to strengthen board chairperson’s capabilities and expertise through:

·   Incorporation of the Department’s ISM policy into investigation training and retraining,
    including casual analysis, for board chairpersons.

·   Conducting oversight of Type B investigations and reports, including assuring evaluation of
    management systems.

·   Assuring EH senior management assistance, support, and advice to board chairpersons and
    members, including during the causal analysis phase of Type A investigations.

·   Supporting line management requests to provide training to board chairpersons and members
    for Type B investigations, including analysis of management systems within the ISM
    framework.

Recommendation 11. DOE O 225.1A requires that management systems be evaluated as
potential root causes and other causal factors of accidents. Management weaknesses identified
must be of sufficient specificity to: (1) support development of judgements of needs, and (2) to
facilitate effective and sustained corrective actions. EH will continue to strengthen the
identification of specific and correctable management factors through:

·   Selecting board chairpersons from a cadre of trained and experienced managers for Type A
    investigations.

·   Including personnel with management experience and expertise on Type A boards.

·   Overlaying the Department’s ISM policy template on causal analysis of management systems.

·   Utilizing the QRB to independently review investigation results, and the identification of
    specific and correctable management causal factors.

Recommendation 12. EH maintains a trained cadre of accident Board chairs, members, and
analysts. EH provides training of these personnel to support both Type A investigations
(performed by EH) and Type B investigations (performed by line management). The recent
INEEL carbon dioxide Type A accident investigation board included two trained and highly
experienced analysts, including a Ph.D. in organizational behavior, to assist the board in the

Page 24
causal analysis process. EH will continue to strengthen this area to assure a continuing and
adequate cadre of analytical expertise by:

·   Providing additional training and retraining on causal analysis techniques, including
    application of ISM principles, and core functions, to the analysis process.

·   Continuing to expand the cadre of available board chairs, members, and analysts through
    recruiting and training.

·   Continuing to maintain a cadre of consultants and National Laboratory employees highly
    trained and experienced in causal analysis.

Recommendation 13. EH will have procedures in place by January 30, 1999 to address this
recommendation. The procedures will include practical considerations, such as time restraints
under which accident investigations are conducted. EH has direct control over the selection of
board members and advisors for Type A accident investigations only, but will emphasize the
importance of resolving conflict of interest issues for Type B investigations through training.


cc: Peter Brush, EH-1
    Richard Kiy, EH-1
    Marty Mathamel, EH-1
    Glenn Podonsky, EH-2
    Orin Pearson, EH-3
    Joe Fitzgerald, EH-5
    Geoffry Judge, EH-7




Page 25
                                                                     Appendix B

Scope and Methodology   We conducted the fieldwork portion of our inspection during
                        June 1997 to May 1998, at DOE Headquarters and the Oak
                        Ridge Operations Office (OR). We interviewed selected
                        Office of Environment, Safety and Health (EH) and OR
                        officials; DOE Board members and advisors to the EH
                        Accident Investigation Board that investigated the K-25
                        welder fatality; Lockheed Martin Energy Systems (LMES)
                        officials; individuals knowledgeable in causal analysis;
                        individuals knowledgeable of ANSI Z-49.1; and DOE officials
                        knowledgeable of the Department’s Occurrence Reporting and
                        Processing System (ORPS) and the Department’s
                        Computerized Accident Investigation Reporting System
                        (CAIRS).

                        We reviewed the Department’s policies, procedures and
                        guidelines regarding accident investigations; selected
                        Occupational Safety and Health Administration regulations;
                        data from the Department’s CAIRS and ORPS data bases;
                        LMES contractual documents; the official investigation file
                        maintained by the EH Accident Investigation Board that
                        investigated the K-25 welder fatality; revisions of
                        ANSI Z-49.1 from 1967 to 1994; and literature regarding root
                        cause analysis.

                        We also reviewed the EH accident investigation report, titled:
                        “Type A Accident Investigation Board Report on the
                        February 13, 1997, Welding/Cutting Fatality at the K-33
                        Building, K-25 Site Oak Ridge, Tennessee,” and selected
                        DOE Type A and Type B accident investigation reports.

                        This inspection was conducted in accordance with the Quality
                        Standards for Inspections issued by the President’s Council on
                        Integrity and Efficiency.




Page 26                                                   Scope and Methodology
                                                    IG Report No.__DOE/IG-0442__

                        CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness
of its products. We wish to make our reports as responsive as possible to our cus-
tomers' requirements, and therefore ask that you consider sharing your thoughts with
us. On the back of this form, you may suggest improvements to enhance the effec-
tiveness of future reports. Please include answers to the following questions if they
are applicable to you:

       1.      What additional background information about the selection,
               scheduling, scope, or procedures of the audit or inspection
               would have been helpful to the reader in understanding this re-
               port?

       2.      What additional information related to findings and recommen-
               dations could have been included in this report to assist man-
               agement in implementing corrective actions?

       3.      What format, stylistic, or organizational changes might have made this
               report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General have
               taken on the issues discussed in this report which would have been
               helpful?

Please include your name and telephone number so that we may contact you should
we have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization _____________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                              U.S. Department of Energy
                              Washington, D.C. 20585
                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of In-
spector General, please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                  through the Internet at the following alternative address:


         Department of Energy Human Resources and Administration Home Page
                               http://www.hr.doe.gov/ig

             Your comments would be appreciated and can be provided on the
                    Customer Response Form attached to the report.

                            This report can be obtained from the
                                U.S. Department of Energy
                       Office of Scientific and Technical Information
                                        P.O. Box 62
                               Oak Ridge, Tennessee 37831
